No. 20-1088

 

IN THE

Supreme Court of the United States

CARSON ET AL.,

Petitioners,
v.

A. PENDER Maktn, in her official capacity as
Commissioner of the Maine Department of Education,

Respondent.

On Writ of Certiorari
to the United States Court of Appeals
for the First Circuit

BRIEF FOR AMICI CURIAE
AMERICANS FOR PROSPERITY FOUNDATION AND
YES. EVERY KID.

IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,679 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 9, 2021.

 

Colin Casey Hégan
Wilson-Epes Printing Co., Inc.
